No. 20-804
IN THE

supreme Court of tbe Entteti iptateo
HOUSTON COMMUNITY COLLEGE SYSTEM,
Petitioner,
v.

DAVID BUREN WILSON,
Respondent.

On Writ of Certiorari to the United States Court
of Appeals for the Fifth Circuit

BRIEF FOR THE ASSOCIATION OF
GOVERNING BOARDS OF UNIVERSITIES
AND COLLEGES AS AMICUS CURIAE IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,500 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 21, 2021.

Cohn Casey Plogan
Wilson-Epes Printing Co., Inc.

